<html>
<title> - ORGANIZATIONAL MEETING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








                         ORGANIZATIONAL MEETING

=======================================================================

                                MEETING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 24, 2017

                               __________

                            Serial No. 115-2

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-179 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                                           
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE MEETING

Committee's Authorization and Oversight Plan, 115th Congress.....     5
The Honorable Gregory W. Meeks, a Representative in Congress from 
  the State of New York: Amendment to the Authorization and 
  Oversight Plan.................................................    16
Rules of the Committee, 115th Congress...........................    17
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island: Amendment to the Rules of the 
  Committee......................................................    37

                                APPENDIX

Meeting notice...................................................    52
Meeting minutes..................................................    53
Meeting summary..................................................    55
Record vote on amendment offered by the Honorable David Cicilline    56

 
                         ORGANIZATIONAL MEETING

                              ----------                              


                       TUESDAY, JANUARY 24, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:39 a.m., in 
room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order. I will 
ask everyone to take their seats.
    It is an honor to convene the organizational meeting of the 
Committee on Foreign Affairs for the 115th Congress and to 
welcome all our new members and our returning members.
    Now, for the members of the committee, this is the second 
oldest committee in the House of Representatives. Ways and 
Means predates us, but this committee had its origins in the 
Committee of Correspondence, formed by the Continental Congress 
in 1775, and was first chaired by Benjamin Franklin.
    Our predecessors have struggled with the questions of war 
and peace, freedom and tyranny, and diplomacy and development 
now for more than two centuries.
    This past Congress, we too tackled a number of difficult 
issues, including threats from Iran, Russia, North Korea, and 
ISIS. And we did this work together, which is reflected in the 
fact that this committee was responsible for 24 pieces of 
legislation becoming public law. All in all, we held 280 
hearings, briefings, and meetings. And I am confident that our 
committee will continue to rise to the occasion in this new 
Congress.
    Of the major initiatives awaiting us, one of the most 
significant will be to authorize the Department of State, whose 
accounts have not been authorized for nearly a decade and a 
half, despite our efforts of authorizing these in the past and 
sending them to the Senate. Thankfully, this past year, we 
succeeded in working with the Senate to enact critical Embassy 
security and personnel reforms. I am hopeful that this will be 
the year that we succeed in fulfilling our budget-authorizing 
role, one of our most basic and important mandates.
    We will accomplish this and other critical tasks by working 
together. One of the things I enjoy most about this committee 
is seeing us cooperate, harnessing the dedication and ingenuity 
on both sides of the aisle to address the serious challenges 
our Nation faces.
    What I will share with you is that Mr. Engel and myself 4 
years ago, when we became chairman and ranking member, agreed 
we would run this committee in a bipartisan way, that our 
members would travel together, that we would split the time 
equally, that we would enforce the rules. Actually, the rules 
originally were written by Thomas Jefferson in terms of the 
decorum that we are supposed to express.
    It is my observation that the reason we had 24 pieces of 
legislation passed is because members got to know each other, 
listen to each other, work together. That is the only way 
forward for the United States, as challenging as this world is 
today, is if we all speak with one voice. And we won't always 
agree, but Ranking Member Engel and I work hard to conduct the 
business in a way befitting the history of this great 
committee.
    I strongly believe that our country's protection and 
prosperity depends upon our willingness to engage each other in 
this room as colleagues who can work together, despite our 
philosophical differences. So, again, I really urge you to get 
to know each other. And I really urge you to benefit from the 
time spent trying to understand our varied backgrounds and 
interests. You can learn an awful lot by listening to people.
    And before asking Ranking Member Engel for his comments and 
member introductions, I would like to briefly introduce the new 
Republican members to the Foreign Affairs Committee.
    After 2 years away, we are glad to have Congressman Adam 
Kinzinger of Illinois returning to the committee. Thank you, 
Adam.
    Congressman Jim Sensenbrenner from Wisconsin's Fifth 
District brings decades of congressional experience and 
expertise to the committee.
    We have Congresswoman Ann Wagner of Missouri's Second 
District. She served as U.S. Ambassador to Luxembourg and has 
focused on human trafficking, among other issues.
    Congressman Brian Mast comes from Florida's Eighth 
District. We thank this father of three for his extraordinary 
service to our country, having served in Afghanistan as a bomb 
disposal expert.
    We have Congressman Francis Rooney of Florida's 19th 
District, a former Ambassador to the Holy See and successful 
businessman, owner of a construction company that dates to 
1856.
    Congressman Brian Fitzpatrick from Bucks County, 
Pennsylvania, a former FBI Investigator of the Year, not to 
mention a C.P.A., J.D., M.B.A., EMT, and, of course, Eagle 
Scout. You would have to be an Eagle Scout to have that as a 
career followup. His FBI service took him also overseas to Iraq 
and Ukraine.
    And, last but not least, Congressman Tom Garrett of the 
Commonwealth of Virginia's Fifth District brings both military 
and legislative expertise to this committee. And I would also 
like to congratulate him on his recent marriage.
    So, once again, a big welcome to our new members. The 
committee will benefit from all of your years of service to 
this country.
    And I would now like to yield to the ranking member for his 
opening comments and the introduction of our Democratic 
members.
    Mr. Engel. Well, thank you very much, Mr. Chairman. I look 
forward to working with you in the coming Congress, as we have 
worked together so well during the past 4 years. I am hopeful 
that we will continue this committee's longstanding tradition 
of bipartisan cooperation in promoting our national interests. 
Chairman Royce and I like to say that, when it comes to 
promoting national interest, politics stops at the water's 
edge.
    And I am very proud of the members on this committee, on 
both sides of the aisle, who have fulfilled that over the past 
4 years that Chairman Royce and I have been ranking member and 
chairman, respectively. And so I think it is very important 
that we try to continue that. It doesn't mean we are not going 
to have disagreements from time to time, but I do believe, 
respectfully, that disagreements can be respectful, not 
disagreeable.
    During the last 8 years, my colleagues on the majority side 
called the administration to task when it made a foreign policy 
decision which they objected to or they thought put our 
interests abroad at risk, and even did I. I think everyone 
knows that I am not afraid to speak my mind when I disagree 
with a policy, even if my own party is behind that policy. So I 
think all the members on this side certainly feel the same way. 
And I hope, going forward, we keep up that tradition of 
speaking truth to power, putting our country's interests before 
our parties. That is what it means to leave politics at the 
water's edge.
    Speaking of leaving politics at the water's edge, I want to 
just take a moment to talk about a great friend who was 
chairman of this committee for many years who recently passed 
away, and that is Congressman Ben Gilman of New York. His 
portrait is to my right over there on the wall. Parts of my 
district are the same as Ben's district. Those of you who were 
on the committee while Ben was the chairman of this committee 
know that Ben was a wonderful person who was fair, kind, 
sensible. And I think Ed Royce continues in that fine tradition 
of bipartisanship and working through both sides.
    So I would just ask my colleagues very quickly for a moment 
of silence for Chairman Gilman.
    [Moment of silence.]
    Mr. Engel. Thank you. I would now like to take this 
opportunity to briefly introduce the new Democratic members of 
this committee.
    First, I am very happy to welcome Dina Titus, who is now 
serving her third term representing the First Congressional 
District of Nevada, previously served one term representing 
Nevada's Third District. I know Dina wanted very much to get 
onto this committee, and I am delighted to have her, and I 
think we will all benefit from her expertise. So, Dina, 
welcome. Welcome to the committee.
    Next, I am pleased to welcome Norma Torres from California. 
She is now serving her second term, representing the Golden 
State's 35th Congressional District, and has expressed to me a 
desire for a long, long time to be on this committee, has a 
particular knowledge of Central American affairs. That is where 
she was born. And I look forward to her expertise in teaching 
us some of the things that are important. As we know, that 
region of the world and our country are really bound up and 
intertwined, and it is really so important to have someone of 
her expertise on the committee. So, Norma, glad to have you.
    Next, we are very happy to welcome back Brad Schneider, who 
served on the committee in the 113th Congress during his first 
term, representing the 10th Congressional District of Illinois 
and was recently elected again to serve that district. Those of 
you who remember Brad know how smart he is and what a hard 
worker he is, and we are just delighted to have him back on the 
committee. So, welcome, Brad.
    I am also very happy to welcome Tom Suozzi, a newly elected 
member representing the Third District of New York out on Long 
Island, replacing Steve Israel in Congress. Tom has extensive 
knowledge, was the county executive of Nassau County for many 
years, and the minute he was elected came to me and said: I 
really want to serve on the Foreign Affairs Committee. So I 
know we are going to look forward to his expertise. Tom Suozzi.
    Next, I am delighted to welcome Adriano Espaillat, also a 
New Yorker, who represents the 13th Congressional District, my 
neighbor to the south. Our districts abut each other. Adriano 
is the first Dominican American to serve in Congress. So he is 
a trailblazer, and I know he is very, very popular. He replaces 
Charley Rangel in Congress.
    Last but certainly not least, I would like to welcome Ted 
Lieu, now serving his second term, representing the 33rd 
Congressional District of California. When we are all retired, 
he will have us out to Malibu, and we will have a very good 
time.
    So, Ted, we are really delighted to have you and your 
expertise as well. I know we talked about Taiwan and some of 
the other things that are near and dear to your heart, and I 
look forward to working with you.
    So thank you, Mr. Chairman, and we move on and looking 
forward to a good year.
    Chairman Royce. As am I, Mr. Engel. Thank you.
    And congratulations to all the new members of the 
committee, and thank you in advance for your service to this 
committee.
    So, moving on to the organizational items on the agenda, we 
will begin with the adoption of the committee's authorization 
and oversight plan for the 115th Congress. This is required by 
House Rule X, which was sent to your offices last week, and it 
is included in your folders.
    Without objection, we will consider it en bloc with the 
noncontroversial one-sentence amendment received late yesterday 
from Mr. Meeks on press freedom in the Western Hemisphere, 
which members also have in their packets.
    [The information referred to follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
 
                              ----------                              

    Chairman Royce. And this plan sets out the general 
intentions of the full committee, subject as always to world 
events, and reflects input from both sides of the aisle. This 
committee has oversight responsibility over the State 
Department and several other government agencies, and it is our 
job to ensure that they are operating effectively. So I would 
ask if the ranking member has any comments on the oversight 
plan.
    Mr. Engel. Well, thank you, Mr. Chairman, and let me thank 
your staff for working with us on the oversight plan. It 
identifies many of the key foreign policy challenges that the 
committee will examine over the next 2 years, and it is a good 
document. I certainly support its adoption.
    Chairman Royce. Then, without objection, the authorization 
and oversight plan is considered as read and adopted.
    The next order of business is approving the list of 
committee professional staff for the 115th Congress, as 
required by clause 9 of House Rule X. So I want to recognize 
the committee chief of staff, Amy Porter; the majority staff 
director, Tom Sheehy; Mr. Engel's minority staff director, 
Jason Steinbaum; and their colleagues for their service to the 
committee.
    [Applause.]
    Chairman Royce. Our new members will soon learn how 
fortunate we are to have a dedicated professional staff of such 
a high caliber.
    And, without objection, the staff list that all the members 
have before them is approved.
    And, finally, we will turn to the adoption of committee 
rules for the 115th Congress, which were circulated to your 
offices last week.
    [The information referred to follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Chairman Royce. Now, these rules are identical to those 
that governed committee operations during the last Congress, 
with one minor addition agreed between the ranking member and 
myself: To ensure that the minority is consulted and that 
witnesses receive notice of any change to the title of a 
previously noticed hearing.
    Before entertaining a motion on the committee rules, I am 
pleased to yield to the ranking member if he has any comments 
on the rules.
    Mr. Engel. Yes. Thank you, Mr. Chairman. The rules we have 
here are generally the rules we have used with both Republican 
and Democratic majorities in this House. That is not to say 
they cannot be improved. I understand Mr. Cicilline has an 
amendment. But I certainly support them and am glad that we are 
again continuing the traditions that you and I talked about 
earlier.
    Chairman Royce. Thank you. Thank you, Mr. Engel.
    Are there any amendments?
    Mr. Cicilline, there is an amendment at the desk?
    Mr. Cicilline. Yes. Thank you, Mr. Chairman. I have an 
amendment at the desk.
    Chairman Royce. So we are going to ask our staff now to 
distribute the amendment to the members so that they can all 
read the amendment. And then we will ask the clerk, clerk, will 
you report the amendment?
    Ms. Marter. Cicilline amendment to House Foreign Affairs 
Committee rules for the 115th Congress. Section 6(b)(4) is 
amended by inserting at the end: A witness invited to testify, 
as appointed by the President from civilian life, shall include 
a disclosure form identifying any arrangement, affiliation, 
relationship, or substantial financial interest the witness has 
with any organization, company, or entity directly related to 
the subject of the hearing as well as the nature of the 
relationship disclosed, unless the committee Chairman and the 
Ranking Member determine that there is good cause for 
noncompliance. A witness must further disclose every instance 
in which he or she has registered as a foreign agent under the 
Foreign Agents Registration Act.
    [The information referred to follows:]
   
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. The Chair reserves a point of order and 
recognizes the author to explain the amendment.
    Mr. Cicilline. Thank you, Mr. Chairman.
    And I thank you and Ranking Member Engel for your 
leadership on this committee. It has been a great pleasure to 
serve on the Foreign Affairs Committee and offer this 
amendment, which is quite simple. As we already require from 
nongovernmental witnesses, it would require a basic disclosure 
from witnesses representing our Government before this 
committee so that we know whether they have any significant 
ties to organizations or entities that are the subject of our 
hearings.
    Furthermore, it requires government witnesses to disclose 
all instances in which they have ever represented a foreign 
government, as required under the Foreign Agents Registration 
Act.
    These two disclosures will allow the members of our 
committee to have a thorough understanding of any interests or 
previous connections which may play a role in a witness' 
perspective on the issues on which he or she is testifying.
    This is not to suggest that the fine men and women who 
serve as appointees in any administration would be unduly 
influenced by outside relationships. I have the greatest 
respect for all of the public servants who choose to represent 
our country. But I believe that it is wise to require full 
disclosure and transparency on the part of all witnesses so 
that members may have a full understanding of a witness' 
history and background in relation to the topics on which they 
are being called to testify.
    It is true that government appointees are required to 
certify by law that they do not have competing interests with 
foreign governments, but those certifications are not public 
and are not disclosed to this committee. And government 
witnesses are not required to disclose to this committee 
whether they have ever represented a foreign government under 
FARA, information which I believe would be extremely useful to 
committee members.
    So I urge my colleagues to support this very 
straightforward amendment in the name of transparency and urge 
all members of the committee to recognize the value of learning 
this information before we hear from witnesses in the coming 
Congress.
    And, with that, I yield back.
    Chairman Royce. The Chair recognizes himself.
    I think, just on reflection of this, this is a regrettable 
amendment. I have served on this committee for many, many 
years, and I can't recall there ever, ever being a time when we 
had an amendment to the Rules Committee package. And the reason 
for that is because we get together a week before and we share 
this package, so we don't have amendments come at the last 
minute. We work out before the organizational meeting that 
language. And that was the case long before Mr. Engel and I 
chaired this committee.
    If there is a problem that needs to be addressed, I am 
pleased to do so. But of the hundreds of administration 
witnesses that appeared before this committee last Congress--
and I think, last Congress, we had 120--I am not aware of any 
claims of conflict of interest, nor of the hundreds that 
preceded that in former sessions of Congress. And I think the 
reason it is not an issue is because it is amply covered in 
existing law. Every Presidential appointee who requires Senate 
confirmation and every Assistant Secretary, every schedule C 
appointee, every policymaking employee that you have at State 
who appears here before us has to go through the public 
financial disclosure requirements under the law. And all public 
employees are subject to criminal conflict-of-interest laws.
    So what does that mean? That means that, prior to their 
appearance here before this committee, we have their executive 
branch public financial disclosure report with all of that 
information on it.
    It also means that we have at our disposal the information 
publicly available, in terms of whether they were ever--
yielding back to Mr. Cicilline, what was the terminology that 
you used in your amendment? If I could have a copy of your 
amendment here. Here it is: A foreign agent under the Foreign 
Agents Registration Act. We likewise have, under the 
registration laws, all of that information going back over 25 
years.
    So the executive branch personnel, public financial 
disclosure report, I have this here for Rex Tillerson, the new 
Secretary of State, for General Mattis. And we are happy to 
show you how to have at your disposal that disclosure 9 days 
before or a week before the committee hearings. So, if there 
are questions and you want to raise those questions, you will 
have a copy of any registration as a foreign agent going back 
over 25 years that you can bring up. And the witness will be 
seated right there at that desk. You can raise those issues. 
Any conflict of interest that you perceive out of the financial 
report, you can raise that.
    From my standpoint, when you have 120 government officials 
in front of the committee and there are disclosures in place 
and no one has raised a single case of concern over 
administration witnesses being unduly conflicted and presenting 
false testimony, I don't know what the problem is we are trying 
to solve. But what I am sharing with you is that we have the 
information here, and I will share that information with you on 
these points you raise.
    In terms of bringing up the amendment, unfortunately, it 
looks like a double standard from where I sit. I am just going 
to share that. No U.S. Government witness from any 
administration, Republican or Democratic, has ever been 
subjected to such a requirement. And, again, when you are 
already subject under the law to conflict-of-interest and 
financial disclosure requirements and it has to be made public 
and we have it prior to the hearing, you have it at your 
disposal. You have it under the Ethics in Government Act, under 
the STOCK Act, and under the other criminal and civil statutes. 
Criminal law prohibits administration officials from 
participating in official matters in which that official or 
those whose acts may be imputed to that official has any 
financial interest. So senior administration officials also 
have this legal obligation, as I say, to file these public 
reports on their finances.
    And in regards to Mr. Tillerson, who, if confirmed, will 
appear before this committee, he told the Senate Foreign 
Relations Committee this, and I will just give you his 
testimony before Senator Corker's Foreign Relations Committee 
the other day, when questioned: ``That part of my life is over 
. . . the first step I took was to retain my own outside 
counsel, and the only guidance I gave them is I must have a 
complete and clear, clean break from all of my connections to 
ExxonMobil, not even the appearance. And whatever is required 
for us to achieve that, get that in place.''
    Precisely. And that is what we expect.
    So, again, the issues being raised are already covered 
under the law. If this situation changes and we need to revisit 
the committee's rules, then I commit to the members to do so, 
but we are not in the practice of changing the committee rules 
absent a real demonstrated need.
    Do any other members----
    Mr. Kinzinger. Mr. Chairman.
    Chairman Royce. Mr. Kinzinger.
    Mr. Kinzinger. Since I wasn't here, as I am going over the 
merits of this amendment--I wasn't here, obviously, the last 
years--I wanted to pose a question to the author, if I could. 
You know, did you attempt to do this 2 years ago, and what was 
the result, or is this the first time?
    Mr. Cicilline. If the gentleman is yielding, I am happy to 
answer.
    This amendment was not offered last time we were here. Had 
it been offered, I would have, of course, supported it. This is 
something that I developed in relation to a series of events 
that I think demand that we be particularly transparent. And if 
this information is, in fact, available, as the chairman has 
suggested, this would be very simple disclosure. It is also 
important to recognize that the disclosure that this amendment 
seeks is not limited to financial disclosure, which the 
chairman is talking about. Those disclosures are financial. 
This also includes nonfinancial conflicts of interest.
    Mr. Kinzinger. If I can, I will just retain my time and 
just say, you know, I think it is obvious that this is, in 
essence, a partisan play. And this is a very bipartisan 
committee, and that is why I love it so much.
    And so I would agree with the chairman: This stuff is very 
open, very accessible. And I hope we all take that into account 
when trying to decide whether or not we are going to play, in 
essence, partisanship on a committee where we believe politics 
should end at the water's edge.
    I thank the chairman for yielding.
    Chairman Royce. Let me recognize the gentleman from 
California.
    Mr. Bera. I will yield my time to Mr. Cicilline.
    Mr. Cicilline. I thank the gentleman for yielding.
    I wanted to first say I regret that anyone has seen this as 
a partisan issue. We, I think in a bipartisan way, 2 years ago 
strengthened disclosure requirements for nongovernmental 
organizations.
    Chairman Royce. We did.
    Mr. Cicilline. And in the same way we strengthened that, I 
think we can do the same thing for government witnesses. So I 
implore my colleagues not to see this as a partisan issue, but 
as I hope an issue that both Democrats and Republicans can 
agree that our constituents deserve the right to know as we 
assess testimony and assess the perspective of witnesses that 
we have good information and thorough information as to whether 
or not any arrangement, affiliation, or prior relationship 
might color in any way their testimony or their perception.
    And while the chairman has made reference to financial 
disclosures, this amendment is more than financial. These are 
nonfinancial conflicts that might arise as a result of 
arrangements, affiliations, or relationships. The notion that, 
because this is available in some limited context as it relates 
to finances, that we shouldn't have this information in a broad 
range of potential conflicts, there is no harm in knowing that. 
If there are no conflicts, and I presume most witnesses will 
say there are none, we will accept that. But if there are, we 
ought to know that.
    I don't think the sharing of that information, the 
disclosing of it, impugns anyone. It just says we should have 
this information so that, when we are making determinations on 
how to weigh testimony, that we know what might contribute to 
certain perspectives, certain viewpoints, and what prior 
relationships might exist. I think, you know, we talk a lot 
around here about transparency and making sure that we are 
operating free from conflicts of interest. I think those are 
important values. This amendment simply requires a very simple 
disclosure. As the chairman said, my guess is that most of the 
witnesses will say there are none. But in the event there are, 
we ought to know that.
    Chairman Royce. In one sense, Mr. Cicilline, I think there 
is a valuable contribution in raising the argument in the sense 
that many of the members probably did not know that, under the 
registration with regard to foreign agents under Foreign Agents 
Registration Act, that you can go back and get this information 
that is objective--that is objective--back over 25 years and 
find out what people have ever had.
    Mr. Cicilline. For financial.
    Chairman Royce [continuing]. That financial tie or that you 
can go through these statements and get them a week before and 
pore through them and find any financial tie.
    So the question is, if things become so vague, how could a 
witness know, you know, on the question of a tie that is not 
financial, the subjectivity here, the lack of objectivity? What 
I am sharing with you is, we will make available and you have 
at your disposal the tools I think to get to the crux of this 
problem without getting into an area so vague--and I would just 
add one other thing.
    Let me let you make your point. I yield back.
    Mr. Cicilline. I just want to say finally, Mr. Chairman, 
that the question may be one of burden. It seems to me that the 
burden properly rests on the testifying witness to make these 
disclosures, and it shouldn't rest on the members of the 
committee to conduct their own independent investigation, 
particularly with limited resources. We have financial reports 
that will show conflicts as it relates to financial conflicts, 
but we don't have the ability to develop or research or 
investigate any other potential conflicts as a result of an 
affiliation, a relationship, or other arrangement.
    And so I think the question really is, if we all agree this 
information is important, the committee has a right to know it, 
then it seems to me simpler to put the burden on the party that 
has the knowledge, that is the witness, rather than put that 
burden on members of the committee to search this out. So I 
urge my colleagues to support what I think is a very simple 
amendment that will not be burdensome to witnesses. They will 
presumably know this about themselves. But I think the American 
people and we as individuals who have to evaluate that 
testimony ought to have a sense and a clear understanding of 
any of these potential conflicts.
    Chairman Royce. Mr. Issa, I think, was seeking recognition.
    Mr. Issa. Thank you, Mr. Chairman.
    I just want to inquire a little detail on the amendment. Is 
this amendment intended to be for as many years back or only 
current relationships? It appears as though it would be open-
ended, that if I traveled to my grandfather's birthplace in 
Lebanon and sold 10 square meters of land 30 years ago, I might 
have to disclose it. Is that the intent?
    I would yield.
    Mr. Cicilline. Yes. The amendment I believe uses the 
language ``has.'' So it means current arrangements, 
affiliations, relationships, or substantial financial 
interests. A relationship that has concluded or an affiliation 
or an arrangement that has concluded would not be covered. It 
would be for current arrangements, affiliations, relationships, 
or substantial financial interests the witness has in the 
present tense.
    Mr. Issa. Reclaiming my time.
    If I could make, perhaps, a constructive suggestion. We are 
going to have many, many witnesses under the committee rules. 
Of course, we get notice of who those witnesses are. If the 
chairman were to commit to have questions like this made 
available to any and all witnesses in which we had supplemental 
questions like, ``do you have that,'' with the witness prepared 
to answer it, then we might serve both purposes, which is put 
them on notice that this question may be asked but, at the same 
time, not require an extensive addition to a form that would 
be, if you will, nonstandard to the many other committees.
    Would that be of interest to the gentleman, in order to 
essentially be able to query a witness, knowing that this 
question is before them?
    And I would yield.
    Mr. Cicilline. Thank you. I thank the gentleman for the 
question. I think if this question were posed to witnesses 
before the hearing, because, obviously, an answer to this 
question can have an impact on the questions you ask or the 
perspective that we may take in our line of questioning, that 
is the whole point of putting it in the rules, so it happens 
ahead of time. To find out after the hearing or to use your 5 
minutes to get this question answered seems to me unfair.
    Let's get this information ahead of time. If it is in a 
written form from the chairman and the ranking member that we 
then get a written response to, that is fine. I think it could 
be satisfied in a number of different ways, but just getting 
the information to the members of the committee before the 
witness actually testifies. I am certainly open to the process 
by which that happens.
    Mr. Issa. If I could yield to the chairman for just one 
more question.
    In my prior committee work, we often did allow both sides 
to provide, if you will, interrogatories to witnesses, with an 
expectation that they often would answer them in writing, but 
they often would not answer them in writing, but they were on 
notice that those questions might be before them.
    Is this consistent with what the chairman would envision to 
resolve this ambiguity?
    Chairman Royce. I think the gentleman from California, Mr. 
Issa, raises a point here. The committee members here can offer 
whatever questions you would like to have answered. I have 
suggested that, in this particular case, this particular 
amendment is so vague, but we have at our disposal first the 
ways for you to facilitate now any objective past connection, 
and you have at your disposal the way to submit those 
questions.
    So, that being the case, I would also just point out that 
no U.S. Government witness from any administration has ever 
been subjected to such a requirement as you have added here. 
And no other committee has this requirement in its rules.
    So I think the suggestion Mr. Issa makes is a good one that 
allows you to follow up with whatever questions you would like 
to submit in advance without us burdening every single 120----
    Anyway, I see another member seeks recognition. The 
gentleman from Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    I would just like to speak in support of this amendment. 
And I would just make a couple observations. First of all, the 
fact that no other committees require this doesn't mean that it 
is not a good idea and doesn't mean that, perhaps, they should. 
That is first.
    Secondly, the suggestion was made earlier that somehow 
there is some partisan intent to this, as if transparency is a 
partisan issue. I don't think anyone on this committee believes 
that transparency is a partisan issue. I believe that everyone 
on this committee believes that providing the maximum amount of 
information for this committee and for the people we serve is 
the goal that we should have.
    And so, to that end, to say that we don't need to ask our 
witnesses to provide this information, that we can either ask 
these questions at our hearing or we can dig into public 
records to see what other information is out there isn't just a 
problem for those of us who think that transparency should be 
what guides this committee and its witnesses; it is a problem 
for the people we represent. I don't want and I don't think the 
people that I represent want to have us ask questions about 
witnesses and their connections to the subject matter of our 
hearing if there is a way to get that information beforehand.
    I would think that we would have an interest and certainly 
the American people would have an interest in knowing whether 
those commitments or any sort of interest that they have exist 
before the witnesses get here. It is going to I think affect 
the way that the process works.
    And I guess I would just finish with this. When it is 
suggested that there is some question as to how the witnesses 
can know the answer to this, I think it is fairly obvious that 
there is no one who can answer these questions better than the 
witnesses. Why should we have to wait until they are here to 
ask them? Why should we have to conduct our own investigations? 
Why not ask them, in the nature of full transparency? That is 
what the American people expect.
    And I would just finish where I started. I know that none 
of my colleagues on the other side of this dais believe that 
full transparency and seeking full transparency and the benefit 
of more information rather than less is somehow a partisan 
issue. I know they don't agree with that.
    Chairman Royce. Would the gentleman yield?
    Mr. Deutch. I would be happy to.
    Mr. Chabot. I thank the gentleman.
    I will be brief. I think the reason that many of us would 
suggest that this is a partisan issue is the fact that, for the 
last 8 years, an amendment like this has not been offered from 
the folks on that side of the aisle.
    And I thank the gentleman for yielding.
    Mr. Deutch. I would respond that I am sorry that no one 
thought to seek out this full transparency during the past 8 
years, either from our side of the aisle or from your side of 
the aisle, frankly. We would have been happy--I am sure Mr. 
Cicilline would have been thrilled to have had this discussion 
8 years ago instead of today. But the fact that we haven't done 
this in the past doesn't mean that it is not a good idea.
    Frankly, if that is the way Congress acted, that we were 
stuck only doing things the way we have always done them, 
things would look very different around here than they do. When 
there is a good idea that will lead to greater transparency and 
more information for the American people to know who is coming 
to testify before this committee, I don't think this is a tough 
issue. I think this is a fair amendment. It is what I think our 
constituents would expect us to do here. And I know, again, 
that there is broad bipartisan support on this committee for 
working together, and I think working together to provide this 
kind of transparency is what we ought to do.
    Chairman Royce. And with respect to objectivity, what we 
have is the ability now to pull up the entire history of any 
financial connection--anything objective. We have the 
capability today to go back with electronic form and pull up in 
real time and certainly a week beforehand from the Foreign 
Agents Registration Act any example of any type of conflict 
like that. And, on top of that, we have the ability to question 
in advance if we have some reason, but to do something maybe in 
a way that is not so vague, not so subjective.
    Mr. Deutch. Mr. Chairman, I think I had a minute left.
    Chairman Royce. I yield back.
    Mr. Deutch. And I just wanted to address that. I don't 
disagree that we can do that, but I would respectfully suggest 
that anyone who is watching this hearing knows that there are 
two choices, two paths we can pursue here: We can pursue a path 
that lets members of this committee conduct full investigations 
into filings that have been made and to submit interrogatories, 
that that is one path; or the other path is to simply ask our 
witnesses whether there are any connections to any of the 
subject matters that they are going to be talking about and 
have them provide that answer.
    It seems fairly obvious that the easiest path is to simply 
ask the people who are going to be here to provide that 
information rather than requiring us or our constituents to 
start digging through records or to offering interrogatories, 
which certainly none of them can do as well.
    And, with that, I yield back.
    Chairman Royce. Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    First, I want to strongly associate myself with your 
comments about the vagueness of the language. I think my other 
colleagues have pointed out that this was not offered in 
previous Congresses. I would not vote for this if this were 
going to lodge against a Hillary Clinton administration or 
Barack Obama's administration. I think it has surface appeal 
surely, but it is all-encompassingly vague.
    So I would ask the sponsor, if a witness unwittingly fails 
to disclose a nonfinancial relationship or a nonfinancial 
arrangement, what is the penalty for noncompliance?
    And, secondly, how do you define ``relationship'' or ``an 
arrangement''? A contact? A meeting? Where is that in the plain 
text of this amendment as to how you would define such? If I 
have a conversation with Ileana Ros-Lehtinen, and we do have a 
longstanding good friendship, but would that conversation 
constitute a relationship of some kind or an arrangement?
    With financial disclosure, there is a bright line of 
demarcation as to what we are talking about. And even there, 
you say substantial financial interest. Perhaps all financial 
interest should be part of that. But, again, unwittingly 
failing to disclose doesn't put on the book that would have to 
be provided in some cases about a life of contact. What is the 
penalty? What happens to that witness? Do define, if you will, 
``arrangement'' and ``relationship.'' What constitutes a 
relationship?
    Mr. Cicilline. If the gentleman is yielding, I think there 
is no suggestion in the rule that an unwitting failure to 
disclose carries any penalty. We expect----
    Chairman Royce. Whoa, whoa, whoa. If the gentleman would 
yield.
    Mr. Cicilline. Oh, I am sorry. I thought he yielded to me 
to answer a question.
    Chairman Royce. Yes.
    Mr. Cicilline. And I don't think there is any suggestion 
that an unwitting omission is subject to any penalty. We expect 
all witnesses to answer this question in good faith and to be 
providing information consistent with their best memory.
    I think with respect to affiliation, relationship, 
arrangement, those terms have their ordinary use and their 
ordinary meaning. I think certainly if this amendment passes 
and we think it is important to give additional clarifications 
as we ask witnesses to comply with the terms, that we can do 
that, but I just return to Congressman Deutch's question.
    It is really about which path we take. If the chairman is 
suggesting that you will get this question answered and your 
staff will provide the disclosures that relate to answering 
this question prior to a witness, Democrat or Republican, 
testifying before this committee, that achieves the same 
objective.
    But I do think the question is, what is the path by which 
we collect this information and share it with the committee of 
every witness, Democrat and Republican, and requiring the 
person who has the best knowledge about it, who is the witness, 
to disclose it, you know----
    Mr. Smith. Briefly, this says a witness invited to testify 
as appointed by the President from civilian life. So that is 
the very limited universe of people we are talking about in 
terms of the application of this amendment.
    And, again, if this were being offered and Hillary Clinton 
was the President of the United States, I can tell you my 
opposition to it would be just as strong. It is vague, as 
Chairman Royce has so eloquently said, and it also, I think, 
could have a chilling effect. There is surface appeal. This 
looks like transparency, but it is anything but.
    So I yield back.
    Chairman Royce. If the gentleman would yield.
    So the concept here is that, if I could explain this, you 
could have a relationship with an entity. Have you ever had a 
relationship with an entity? And if your interpretation is 
different--this is the vagueness I am getting to here--it is a 
violation of the Federal False Statement Act.
    Now, I can understand why you might want to with an 
individual ask a certain number of questions. But for 120 
witnesses that we are going to pull up here, to intentionally 
use something that vague in your terminology, I don't know if 
you are like me trying to go back through every conversation 
you have ever had with any Ambassador----
    Mr. Cicilline. It doesn't do that, Mr. Chairman. It is 
whether you currently have. It is not have you ever had. The 
language of the amendment is arrangement, affiliation, 
relationship, or substantial financial interest the witness has 
with any organization, company, or entity directly related to 
the subject of the hearing.
    So you are not required to go back on any prior 
relationships. It is whether the witness currently has anything 
that would involve a relationship, affiliation, or arrangement 
with the current subject matter, entity, or organization that 
is the subject of the hearing.
    It is quite limited. There is no ambiguity. It is not to 
search from your high school days. It is whether you currently 
have a conflict or potential conflict.
    Chairman Royce. Let me suggest that if you want to ask that 
question, you can ask that question, whatever question you 
would like to ask. But to take something and try to fashion it, 
which is so vague that, as I am running these scenarios through 
my head, it seems to me almost designed to make it impossible 
to be precise in the answer to that question when we are asking 
about broad subject areas.
    But if we want to answer it, fine. But the bureaucracy of 
putting it out there for every 120 witnesses that we have come 
before us seems to me quite an impediment to the work of this 
committee, especially when we have suggested ways in real time, 
because it took me all of less than a minute--I think it was 
probably 20 seconds--to get the Secretary of Defense's and the 
Secretary of State's information and then not long to go 
through it. These are questions you can ask in advance, as I 
have suggested. But putting that kind of vague language into 
the rules would not serve us well in terms of our interests for 
the committee.
    Anyway, the Chair withdraws the point of order. The 
gentleman from South Carolina, Mr. Duncan, was seeking time.
    Mr. Duncan. Thank you, Mr. Chairman.
    I will call for the question.
    Chairman Royce. All right. Let me first go to Mr. Engel, 
who I think was requesting time.
    Mr. Engel. Yes. Thank you, Mr. Chairman.
    And very briefly, I want to repeat something that Mr. 
Cicilline said which I think is very important. I support Mr. 
Cicilline's amendment. And he made the point before that I 
think should be made again, is that we already have a provision 
in our rules that requires disclosure of conflicts of interest 
for nongovernmental witnesses at our hearings. And I think it 
is reasonable to apply the same standards to government 
witnesses. That is all he is trying to do. So, therefore, any 
of the witnesses would have the same standard, not just one 
standard for nongovernmental witnesses and one for governmental 
witnesses.
    So I support Mr. Cicilline's amendment. I don't think it 
will be difficult to implement, and I think it is always better 
to have more rather than less transparency.
    And I yield back.
    Chairman Royce. And in conclusion, I just mention that the 
criminal conflict-of-interest statutes on the books for decades 
address these issues in very clear, adjudicated terms. There is 
no known problem that this would solve, but we still have the 
capacity to ask these questions and all other questions that 
you would seek to ask of our witnesses.
    With that said, hearing no further request for recognition, 
the question occurs on adopting the amendment.
    All those in favor, say aye.
    All opposed, no.
    In the opinion of the Chair, the noes have it.
    Mr. Cicilline. Mr. Chairman, I ask for a recorded vote.
    Chairman Royce. A recorded vote has been requested. The 
clerk will call the roll.
    Ms. Marter. Mr. Chairman?
    Chairman Royce. No.
    Ms. Marter. The chairman votes no.
    Mr. Smith?
    Mr. Smith. No.
    Ms. Marter. Mr. Smith votes no.
    Ms. Ros-Lehtinen?
    Ms. Ros-Lehtinen. No.
    Ms. Marter. Ms. Ros-Lehtinen votes no.
    Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    Ms. Marter. Mr. Rohrabacher votes no.
    Mr. Chabot?
    [No response.]
    Ms. Marter. Mr. Wilson?
    Mr. Wilson. No.
    Ms. Marter. Mr. Wilson votes no.
    Mr. McCaul?
    Mr. McCaul. No.
    Ms. Marter. Mr. McCaul votes no.
    Mr. Poe?
    Mr. Poe. No.
    Ms. Marter. Mr. Poe votes no.
    Mr. Issa?
    Mr. Issa. No.
    Ms. Marter. Mr. Issa votes no.
    Mr. Marino?
    Mr. Marino. No.
    Ms. Marter. Mr. Marino votes no.
    Mr. Duncan?
    Mr. Duncan. No.
    Ms. Marter. Mr. Duncan votes no.
    Mr. Brooks?
    Mr. Brooks. No.
    Ms. Marter. Mr. Brooks votes no.
    Mr. Cook?
    [No response.]
    Ms. Marter. Mr. Perry?
    Mr. Perry. No.
    Ms. Marter. Mr. Perry votes no.
    Mr. DeSantis?
    Mr. DeSantis. No.
    Ms. Marter. Mr. DeSantis votes no.
    Mr. Meadows?
    Mr. Meadows. No.
    Ms. Marter. Mr. Meadows votes no.
    Mr. Yoho?
    Mr. Yoho. No.
    Ms. Marter. Mr. Yoho votes no.
    Mr. Kinzinger?
    Mr. Kinzinger. No.
    Ms. Marter. Mr. Kinzinger votes no.
    Mr. Zeldin?
    Mr. Zeldin. No.
    Ms. Marter. Mr. Zeldin votes no.
    Mr. Donovan?
    Mr. Donovan. No.
    Ms. Marter. Mr. Donovan votes no.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. No.
    Ms. Marter. Mr. Sensenbrenner votes no.
    Mrs. Wagner?
    Mrs. Wagner. No.
    Ms. Marter. Mrs. Wagner votes no.
    Mr. Mast?
    Mr. Mast. No.
    Ms. Marter. Mr. Mast votes no.
    Mr. Rooney?
    [No response.]
    Ms. Marter. Mr. Fitzpatrick?
    Mr. Fitzpatrick. No.
    Ms. Marter. Mr. Fitzpatrick votes no.
    Mr. Garrett?
    Mr. Garrett. No.
    Ms. Marter. Mr. Garrett votes no.
    Mr. Engel?
    Mr. Engel. Aye.
    Ms. Marter. Mr. Engel votes aye.
    Mr. Sherman?
    Mr. Sherman. Aye.
    Ms. Marter. Mr. Sherman votes aye.
    Mr. Meeks?
    Mr. Meeks. Aye.
    Ms. Marter. Mr. Meeks votes aye.
    Mr. Sires?
    Mr. Sires. Aye.
    Ms. Marter. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Marter. Mr. Connolly votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Marter. Mr. Deutch votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Marter. Ms. Bass votes aye.
    Mr. Keating?
    Mr. Keating. Aye.
    Ms. Marter. Mr. Keating votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Marter. Mr. Cicilline votes aye.
    Mr. Bera?
    Mr. Bera. Aye.
    Ms. Marter. Mr. Bera votes aye.
    Ms. Frankel?
    Ms. Frankel. Aye.
    Ms. Marter. Ms. Frankel votes aye.
    Ms. Gabbard?
    Ms. Gabbard. Aye.
    Ms. Marter. Ms. Gabbard votes aye.
    Mr. Castro?
    [No response.]
    Ms. Marter. Ms. Kelly?
    Ms. Kelly. Aye.
    Ms. Marter. Ms. Kelly votes aye.
    Mr. Boyle?
    Mr. Boyle. Aye.
    Ms. Marter. Mr. Boyle votes aye.
    Ms. Titus?
    Ms. Titus. Aye.
    Ms. Marter. Ms. Titus votes aye.
    Mrs. Torres?
    Mrs. Torres. Aye.
    Ms. Marter. Mrs. Torres votes aye.
    Mr. Schneider?
    Mr. Schneider. Aye.
    Ms. Marter. Mr. Schneider votes aye.
    Mr. Suozzi?
    Mr. Suozzi. Aye.
    Ms. Marter. Mr. Suozzi votes aye.
    Mr. Espaillat?
    Mr. Espaillat. Aye.
    Ms. Marter. Mr. Espaillat votes aye.
    Mr. Lieu?
    Mr. Lieu. Aye.
    Ms. Marter. Mr. Lieu votes aye.
    Chairman Royce. Were any members not recorded?
    Ms. Marter. Mr. Chabot?
    Mr. Chabot. No.
    Ms. Marter. Mr. Chabot votes no.
    Chairman Royce. Mr. Rooney?
    Mr. Rooney. No.
    Ms. Marter. Mr. Rooney votes no.
    Chairman Royce. All members have been recorded?
    The clerk will report the vote.
    Ms. Marter. Mr. Chairman, on that vote, there are 20 ayes 
and 25 noes.
    Chairman Royce. The noes have it, and the amendment is not 
agreed to.
    Hearing no further amendments, the Chair now moves that the 
committee adopt the committee rules for the 115th Congress.
    All those in favor, say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
committee rules are agreed to.
    Without objection, staff is authorized to make technical 
and conforming changes to the committee rules and authorization 
and oversight plan.
    This completes the business required by the House rules. I 
thank the members, and I look forward to working with all of 
you in the weeks ahead to contribute meaningfully to the 
foreign policy of the United States.
    The committee stands adjourned.
    [Whereupon, at 11:33 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
	 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         
                                  [all]
</pre></body></html>
